No.19-465

]n tbe $>Upreme iourt of tbe Wniteb $>tate~
PETER BRET CHIAFALO, LEVI JENNET GUERRA, AND
ESTHER VIRGINIA JOHN,
Petitioners,
V.

STATE OF WASHINGTON,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF WASHINGTON

BRIEF OF AMICI CURIAE MICHAEL L. ROSIN AND
DAVID G. POST IN SUPPORT OF
PETITION FOR CERTIORARI
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33. l(h), I certify that the
document contains 5,330 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and
correct.

Executed on November 6, 2019.

Michael N. Donofrio
Stris & Maher LLP

